IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1011
CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT,
an individual; PHU CAM NGUYEN, an individual;
CHRISTOPHER MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.
MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
SUPPLEMENTARY BRIEF ON NEW AUTHORITY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CYRUS SANAI
SANAIS
9440 SANTA MONICA BOULEVARD #301
BEVERLY HILLS, CA 90210
Telephone (310) 717-9840
cyrus@sanaislaw.com

RECEIVED
FEB 2 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS OF SUPPLEMENTAL
BRIEF
TABLE OF CONTENTS OF SUPPLEMENTAL BRIEF
TABLE OF AUTHORITIES
INTRODUCTION
IS RELEVANT TO THE FIFTH QUESTION
PRESENTED

vi
2

GACHO

2

THE FIFTH QUESTION PRESENTED
2
GACHO CONFLICTS WITH THE NINTH CIRCUIT'S DECISION
FINDING THAT YOUNGER ABSTENTION APPLIES WHERE THERE THERE
IS AN UNCONSTITUTIONAL RISK OF ABSENCE OF IMPARTIALITY OTHER
THAN FINANCIAL INTEREST
4

THE QUESTIONS PRESENTED THE IN THE PETITION,
IN PARTICULAR THE FIFTH QUESTION
PRESENTED, MUST BE AMENDED
8
CONCLUSION

8

ii
TABLE OF CONTENTS OF APPENDIX

APPENDIX

Document

Page

APPENDIX A

Memorandum
Order of the Ninth
Circuit Court of
Appeals Filed
April 13, 2020 in
Appeal 19-55427,
Sanai v. Staub

Al

APPENDIX B

Memorandum
Order of the Ninth
Circuit Court of
Appeals Filed
April 13, 2020 in
Appeal 19-55429,
Sanai v.
Borenstein

B1

APPENDIX C

Order Denying
Petition for
Rehearing Filed
Filed September
24, 2020 in Appeal
19-55427, Sanai v.
Staub

Cl

APPENDIX D

Order Denying
Petition for
Rehearing Filed
Filed September

D1

iii
2020 in Appeal
19-55429, Sanai v.
Borenstein
APPENDIX E

Order of District
Court Denying
Motion to Vacate
entered January
2019 in Sanai
v. Staub, Case #18cv-02136

El

APPENDIX F

Order of District
Court Dismissing
Action entered
November 5, 2018
in Sanai v. Staub,
Case #18-cv-02136

Fl

APPENDIX G

Order of District
Court Denying
Motion for
Disclosure entered
March 21, 2018 in
Sanai v. Staub,
Case #18-cv-02136

G1

APPENDIX H

Order of District
Court Denying
Motion for
Disqualification
entered March 20,
2018 in Sanai v.

H1

iv
Staub, Case #18cv-02136
APPENDIX I

Order of District
Court Denying
Motion to Vacate
entered March 26,
2019 in Sanai v.
Borenstein, Case
#18-cv-05663

APPENDIX J

Order of District
Court Granting
Motion for
Dismissal entered
March 26, 2019 in
Sanai v.
Borenstein, Case
#18-cv-05663

J1

APPENDIX K

Order of District
Court Denying
Motion for Recusal
entered October
24, 2018 in Sanai
v. Borenstein, Case
#18-cv-05663

K1

APPENDIX L

Order of District
Court Denying
Motion for
Disclosure entered
October 17, 2018

Ll

V
In Sanai v.

Borenstein, Case
#18-cv-05663

APPENDIX M

Motion for
Disclosure and
Recusal of Ninth
Circuit Judges
filed October 9,
2019 in Appeal 1955427, Sanai v.
Staub

M1

APPENDIX N

Motion for
Disclosure and
Recusal of Ninth
Circuit Judges
filed December 2,
2019 Appeal 1955429, Sanai v.
Borenstein

N1

APPENDIX 0

Request for
Judicial Notice
filed May 27, 2020
in Appeal 1955429, Sanai v.
Borenstein

01

APPENDIX P

Relevant Statutes
and Rules

P1

vi

TABLE OF AUTHORITIES
Cases
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009)
Gacho v. Wills,
No. 19-3343, (7th Cir. February 8, 2021)
Gibson v. Berryhill, 411 U. S. 564 (1973)
People v. Gacho,
53 N.E.3d 1054 (III. App. Ct. 2016)

3, 5, 7
2, 4, 5
7
7, 8

1
IN THE

Supreme Court of the United States
CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT, an
individual; PHU CAM NGUYEN, an individual; CHRISTOPHER
MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.
MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
SUPPLEMENTARY BRIEF ON NEW AUTHORITY IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT AND AMENDED QUESTIONS PRESENTED

On Petition for a Writ of Certiorari to the Ninth Circuit Court of Appeals

for relief. Petitio

SUPPLEMENTARY BRIEF ON NEW AUTHORITY IN SUPPORT OF
PETITION FOR REVIEW AND AMENDED QUESTIONS PRESENTED

between the circui
defective analysis
for review, establi
B.

Gach
You?'
Unca
Fina

The Sevent1
Robe]
and n
Circu
was c
acquit
came
Malo
fe de ncollati
Gach(
Titon
opted
later:
fe de rt•
foundl
Gach

th
re

This supplementary brief is filed pursuant to Supreme Court Rule 15.8, which
permits the filing of supplemental briefs addressing new relevant authority, which

ID
dis
di

is the United States Court of Appeal's recent decision in Gacho v. Wills, No. 193343, (7th Cir. February 8, 2021)(slip op.). Petitioner also amends his Questions
Presented, in particular the Fifth Question presented, to account for the new
authority.

GACHO IS RELEVANT TO THE FIFTH QUESTION PRESENTED
A.

The Fifth Question Presented

The Fifth Question presented in the petition is whether the Ninth Circuit
[1

erred in finding that Younger abstention applied to a action where the complaint
alleged state court bias and conflict of interest of specific state court judges because

ap
ab

After
judici
for de
his cli
his dii
held tl
biased

INTRODUCTION

an

the bias did not arise from a direct financial interest in the litigation.
This question arose in in the second filed action that is the subject of this
petition, Sanai v. McDonnell (now Sanai v. Borenstein), CDCA no. 18-5663. In that
case, District Court Judge Klausner held that Younger abstention applied. He

86
addressed the extraordinary circumstances and biased tribunal exceptions by
th,
holding that the former only applied to challenges of statutes, and the latter only
applied if the bias arose from a financial interest. [18-5663 Docket #70 at 3-4, App.

5
reviewed that decision under 28 U.S.C. § 2254 and denied
habeas relief.
We reverse. The Due Process Clause secures a right to trial
before a fair and impartial judge. Evidence that the presiding
judge was actually biased is sufficient to establish a due-process
violation but it's not necessary. Constitutional claims of judicial
bias also have an objective component: the reviewing court must
determine whether the judge's conflict of interest created a
constitutionally unacceptable likelihood of bias for an average
person sitting as judge. Caperton v. A.T. Massey Coal Co., 556
U.S. 868, 878-86 (2009). The state court cited Caperton but
ignored the objective test, holding that Gacho's failure to
establish actual bias was fatal to his claim.
That ruling was contrary to federal law as explained in
Caperton, so we review the claim without deference to the state
court. We hold that the acute conflict between Maloney's duty of
impartiality and his personal interest in avoiding criminal
liability created a constitutionally unacceptable likelihood of
compensatory bias in Gacho's case.
Gacho, slip. op. at 1-3.
The analysis rejected by the Seventh Circuit is the same analysis as utilized
in Sanai v. Borenstein: it holds that Caperton does not control situations governed
by prior United States Supreme Court case law:
The fact that Maloney was bribed in some cases does not
establish that he was not impartial in others. Fair, 193 Ill.2d at 261,
250 Ill.Dec. 284, 738 N.E.2d 500; People v. Titone, 151 Ill.2d 19, 29,
175 Ill.Dec. 702, 600 N.E.2d 1160 (1992). The proposition may even
hold true when, as in this case, "the bribe involves a codefendant and
the two defendants are tried together, albeit one to the jury and the
other to the judge." Cartalino v. Washington, 122 F.3d 8, 10 (7th
Cir.1997). It is merely a suspicious circumstance that warrants
further inquiry. Cartalino, 122 F.3d at 10. The fact that Titone bribed
Maloney does not in and of itself establish Maloney's lack of
impartiality in the defendant's trial. Cartalino, 122 F.3d at 10.

6

The defendant asserts that the "unrebutted facts establish that
* * Maloney harbored a direct compensatory bias" against him.
There is no question that the defendant would have been deprived of
due process and entitled to relief under the Act if Maloney harbored a
compensatory bias against him to camouflage the bribe which he took
from Titone or his criminal activity in other cases. See Bracy, 520 U.S.
at 906, 117 S.Ct. 1793. However, a defendant "who alleges that his
trial judge's corruption violated his right to a fair trial must establish
(1) a 'nexus' between the judge's corruption or criminal conduct in
other cases and the judge's conduct at [the defendant's] trial; and (2)
actual bias resulting from the judge's extrajudicial conduct." Fair, 193
Ill.2d at 261, 250 Ill.Dec. 284, 738 N.E.2d 500. The dissent asserts
that "the success of a judicial bias claim does not depend on whether
the claimant can make a showing of actual bias." In support of the
proposition, the dissent cites to Tumey, 273 U.S. 510, 47 S.Ct. 437 and
Caperton vs. A.T. Massey Coal Co., Inc., 556 U.S. 868, 129 S.Ct. 2252,
173 L.Ed.2d 1208 (2009). We believe that Tumey and Caperton,
are factually dissimilar from the circumstances in this case. In
Tumey and Caperton, the facts established a direct, personal
and substantial influence upon the judges, either by reason of
a pecuniary interest in the outcome of the litigation involved
(see Tumey, 273 U.S. at 523, 47 S.Ct. 437) or because the officers
of the litigant corporation had contributed $3 million to the
judge's election (see Caperton, 556 U.S. at 872-73, 129 S.Ct.
2252). In such circumstances, the Supreme Court held that no
actual bias on the part of the judge need be shown in order to
establish a due process violation. When, however, the
Supreme Court was faced with a case involving a charge of
compensatory bias, as asserted in this case, it found that the
defendant was entitled to discovery to establish actual judicial
bias in the trial of his case. See Bracy v. Gramley, 520 U.S. 899,
908-09, 117 S.Ct. 1793, 138 L.Ed.2d 97 (1997). Fair also involved a
claim of compensatory bias and held that, when a defendant alleges a
deprivation of due process as the result of compensatory bias on the
part of a corrupt trial judge, he must establish actual bias resulting
from the judge's conduct. Fair, 193 Ill.2d at 261, 250 Ill.Dec. 284, 738
N.E.2d 500; see also People v. Titone, 151, 1063*1063 Ill.2d 19, 30-31,

7

175 Ill.Dec. 702, 600 N.E.2d 1160 (1992).
People v. Gacho, 53 N.E.3d 1054, 1062-3 (Ill. App. Ct. 2016)(bold emphasis
added)
The Illinois Appellate Court's analysis rejected by the Seventh Circuit is the
same analysis employed by the District Court in Sanai v. Borenstein and affirmed
by the Ninth Circuit. Judge Klausner ruled that the exception for biased tribunals
to Younger abstention was limited solely to cases of financial interest, because that
was the situation in Gibson v. Berryhill, 411 U. S. 564, 577 (1973). [18-5663 Docket
#70 at 3-4, App. J 4-5.] The Illinois Appellate Court ruled that the Caperton
standard only applied in cases of financial interest. Under the analysis of the
Illinois Appellate Court in Gallo and the District Court and Ninth Circuit in Sanai
v. Borenstein, the all-purpose objective standard articulated in Caperton only
applies to Caperton and other instances where financial interest was at issue.
Accordingly, the Ninth Circuit's analysis in Sanai v. Borenstein is in conflict
with the analysis of the Seventh Circuit, demonstrating a circuit conflict that merits
resolution by this Court. The view adopted by Sanai v. Borenstein is not some
outlier. The Illinois Circuit Court in Gallo's state habeas proceeding and the Illinois
Appellate Court both adopted it, as did the federal District Court in Gallo. Outside
the Seventh Circuit, there's no reason to believe that state or federal courts will
adopt the Seventh Circuit's views; indeed, the Illinois Appellate Court directly
considered the position urged by Gallo and adopted by the Seventh Circuit, and
rejected it. This case therefore shows a conflict between two circuits and between
circuits and state courts.

8
THE QUESTIONS PRESENTED THE IN THE PETITION, IN PARTICULAR
THE FIFTH QUESTION PRESENTED, MUST BE AMENDED
Petitioner's petition focused on the conflict between the Ninth Circuit's view
on judicial disclosure and the position taken in the Sixth Circuit, Seventh Circuit,
Eleventh Circuit and Federal Circuit regarding judicial disclosure. This issue was
presented in the first four of the six Questions Presented. The Fifth Question
presented a question of judicial error, and not conflict amongst federal circuits.
The Fifth Question Presented is no longer appropriate after the publication of
Gacho, supra, because the question does not present the conflict between the Ninth
Circuit's position in Sanai v Borenstein, which follows the analysis of the Illinois
courts in People v. Gacho, supra. An amended questions presented is therefore
attached to this brief, and separate pages are furnished herewith. The pages should
be be substituted for the same numbered pages in the petition. The other five
Questions Presented are unchanged.
CONCLUSION
Petitioner's petition presented four questions presented that arose from the conflict
between the Ninth Circuit's position on judicial disclosure of information that could
bear on disqualification and the opposite approach taken by the Sixth Circuit,
Seventh Circuit, Eleventh Circuit and Federal Circuit. The Fifth and Sixth
Questions Presented are important questions presented by the underlying cases,
but as phrased, are not subject of inter-circuit conflict.
The Fifth Question is presented is no longer completely correct, as it does
present inter-circuit conflict for resolution by this Court. In addition, the number of

9
Courts that have taken the position that the Seventh Circuit rejected outnumber it
by four to one. Therefore the petition presents two separate instances where the
positions of the Ninth Circuit conflict with the positions of the Seventh Circuit, and
as to judicial disclosure, other circuits as well.
This Court should therefore grant the petition to decide these important legal
issues. While the issues are the subject of bona fide conflict, the Seventh Circuit
has worked out the issues in sufficient depth that this Court does not need to put
the case on its argument calendar, and may simply resolve it with a per curiam
decision if it so chooses.
Dated this February 19, 2021
Respectfully submitted,

Cyrfis Sanai
Sanais
9440 Santa Monica Blvd.
#301
Beverly Hills, CA 90212
(310) 717-9840

AMENDED QUESTIONS PRESENTED

1

QUESTIONS PRESENTED
Did the Ninth Circuit Court of Appeals err
when it refused to follow the unanimous holdings of
the Sixth Circuit, Seventh Circuit, Eleventh Circuit
and Federal Circuit that federal judges have an
obligation to disclose on the record information which
the parties or their lawyers might consider relevant
to the question of disqualification?
Do federal judges have an obligation to
disclose on the record information about personal or
professional relationships with a defendant or
witness in a case where such information is explicitly
requested by a party?
Do federal judges have an obligation to
disclose on the record information about their past
and current relationship to a disgraced former
federal judge who is a defendant in a lawsuit along
with his colleagues who retaliated against a litigant
for disclosing the former federal judge's misconduct
and whose whistleblowing played a critical role in his
downfall?
Does the Ninth Circuit's decision that a
District Court Judge was not required to recuse
himself in a case where a defendant previously was
the District Court's lawyer and defended him in state
and federal court in a personal capacity, in direct
conflict with published precedent from the same
District and other Circuits and state courts,
constitute reversible error?
Did the Ninth Circuit err in finding that
Younger abstention applied to a case premised on

11

state court bias and conflict of interest of specific
state court judges because the bias did not arise from
a direct financial interest in the litigation, which
analysis conflicts with the Seventh Circuit's recent
decision, Gacho v. Wills, No. 19-3343, (7th Cir.
February 8, 2021)?
6. May an interlocutory order relating to judicial
recusal and disclosure be appealed in an appeal from
the final judgment of dismissal for intentional refusal
to serve the complaint, or must it be re-challenged by
a post-judgment motion to vacate under F.R.C.P. 60?

